..
                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A09040035                                                                    Page 1 of 1



                NSF OIG received an allegation that a Graduate Student I at a University2 included data
         without appropriate attribution or. acknowledgement, and without permission in her dissertation.
         According to the allegation, the NSF-funded data3 was analyzed in the laboratory of an award
         subcontractor. 4

                 We requested and received a response and materials from the Graduate Student and the
         PI,S and a statement from another award subcontractor. 6 · Our review suggested that, while the
         award subcontractor was responsible for a portion of data analysis included in the dissertation,
         the Graduate Student did acknowledge the subcontractor in the dissertation's acknowledgements
         section; and that acknowledging those who analyze data in another laboratory only in the
         acknowledgement section is accepted practice.

                   Accordingly, this case is closed.




                                                                                                /
         2


         4



         6




NSF OIG Form 2 (11102)
